Table of Appendicies
(in satisfaction of Supreme Court Rule 34.4)
Appendix A
An order from the U.S. District Court for the Middle District of PA grantingcontra Hagan v. Rogers—the appellants' motion for fee apportionment.
Despite the "shall mail" language in this order, the petitioner did not receive it
until mid-October—and then only because it was attached to plaintiffs-appellees' opp­
osition to an en banc hearing in the Court of Appeals.
Appendix B
The order dismissing the joint appeal in the Third Circuit Court of Appeals.
The petitioner had to seek this document on his own; he only received it on
November Q>, ., 2020.
Appendix C
A letter from the clerk of the Third Circuit stating that the court was taking no
action on an application for an en banc hearing because the appeal had been dismissed.
This letter broke the news of the dismissal to Poplawski—two months after the fact!
The petitioner respectfully submits that perhaps the court could have treated the
pro se appellants' application for an initial hearing en banc as a petition for a rehearing,
given that it was filed after dismissal.
The petitioner directs this Court's attention to the citation of Hagan behind a
"but see" signal. This strongly suggests that the Third Circuit intends to cling to its
flawed interpretation of the PLRA.

Case: 20-2115

Document: 6

Page: 1

Date Filed: 08/20/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 20-2115
Anthony Reid, et al v. Secretary Pennsylvania Dept, et al
(U.S. District Court No.: l-18-cv-00176)
ORDER
Pursuant to Fed. R. App. P. 3(a) and 3rd Cir. LAR 3.3 and Misc. 107.1(a), it is
ORDERED that the above-captioned case is hereby dismissed for failure to
timely prosecute insofar as appellant failed to pay the requisite fee as directed. It is
FURTHER ORDERED that a certified copy of this order be issued in lieu of a
formal mandate.

For the Court,
s/ Patricia S. Dodszuweit
Clerk

A True Copy/"0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate
Dated: August 20, 2020
SLC/cc: Jonathan H. Feinberg, Esq.
Joseph G. Fulginiti, Esq.
Barry Gross, Esq.
Richard A. Poplawski, Esq.
H. Miguel Robinson,
Mark D. Taticchi, Esq.
Mr. Peter J. Welsh,

Case l:18-cv-00176-JEJ Document 167 Filed 08/18/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
ANTHONY REID, et al,
Plaintiffs,

l:18-cv-176
Hon. John E. Jones HI

v.
JOHN WETZEL, et al.,
Defendants.
ORDER
August 18, 2020
The Joint Motion for Apportionment of Appellate Fees filed by for Leave
class members Richard Poplawski and Miguel Robinson (Doc. 160) is
GRANTED. The filing fee for the appeal filed in this case shall be apportioned
equally between appellants Richard Poplawski and Miguel Robinson.
The Clerk of this Court SHALL PROVIDE a copy of this Order to the
Third Circuit Court of Appeals. The Clerk SHALL MAIL copies of this Order to

!

Richard Poplawski at #KB7354, SCI-Phoenix, Box 244, Collegeville, PA, 19426
and to Miguel Robinson at #CJ8032, SCI-Phoenix, Box 244, Collegeville, PA
19426.
s/ John E. Jones III
John E. Jones El, Chief Judge
United States District Court
Middle District of Pennsylvania

i

!
!

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 20-2115

Reid v. Secretary Pennsylvania Department of Corrections
(M.D.Pa. No. l-18-cv-00176)

To: Clerk

1)

Appellants’ “Application for Initial Hearing En Banc of Joint Motion for
Apportionment of Appellate Fees; Or Petition for Declaratory Judgement
pursuant to 28 U.S.C. § 2201”

2)'

Response by Plaintiffs/Appellees

No action will be taken on the foregoing application. This appeal was dismissed
August
20, 2020, because the appellants neither prepaid the applicable fees nor were
on
they both granted leave to appeal in forma pauperis. See 3d Cir. L.A.R. 3.3(a), 24.2,
107.1(a). Although the district court granted one appellant (Richard A. Poplawski) leave
to appeal in forma pauperis, the other appellant (H. Miguel Robinson) did not file his
own IFP motion.
If the appellants want to reopen this appeal, they must file a formal motion seeking
that relief. This Court will not act on a motion to reopen, however, unless the appellants
have prepaid the fees or the motion is accompanied by an IFP motion from H. Miguel
Robinson. Any such motions may argue that a full fee should not be assessed. But see
Hagan v. Rogers, 570 F.3d 146, 153-56 (3d Cir. 2009).

For the Court,
s/ Patricia S. Dodszuweit
Clerk

..

t.j

¥

In the

Supreme Court of the United States
Richard A. Poplawski, pro se
Petitioner,

No.

v.
On Petition for a Writ of
Certiorari to the Third
Circuit Court of Appeals

Secretary, Pennsylvania
Department of Corrections,
Respondent.

Certificate of Service

I, the petitioner, Richard Andrew Poplawski, declare under penalty of perjury, that
the foregoing PETITION FOR A WRIT OF CERTIORARI (and attached papers) has
been served on the following parties, via Certified U.S. Mail (postage prepaid), on the
date indicated, and in satisfaction of Supreme Court Rule 29.3:
For the Defendants:
Joseph G. Fulginiti, Esq.
PADOC Ofc. of Chief Counsel
1920 Technology Parkway
Mechanicsburg, PA

USPS Certified Parcel:
}

^ 7015 30ID 01302 nDb b45E

rtoso

For the Plaintiffs:
Bret Grote, Esq.
"Abolitionist" Law Center
P.O. Box 8654
Pittsburgh, PA 15221

Date

USPS Certified Parcel:
}

# 7D1S 3010 000E l^Oh L43fi

Richard A. Poplawski, petitioner, pro se

